      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                          Washington, D.C. 20201




March 11, 2010

TO:            Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Additional Rebates for Brand-Name Drugs With Multiple Versions
               (A-06-09-00033)


The attached final report provides the results of our review of additional rebates of brand-name
drugs with multiple versions.

The Medicaid drug rebate program became effective on January 1, 1991, pursuant to section
1927 of the Social Security Act (the Act). For a manufacturer’s covered outpatient drug to be
eligible for Federal Medicaid funding, the manufacturer must enter into a rebate agreement that
is administered by the Centers for Medicare & Medicaid Services (CMS) and pay quarterly
rebates to the States. The Act requires manufacturers to pay an additional rebate when the
average manufacturer price (AMP) for a brand-name drug increases more than inflation.

Rebates, including additional rebates, are calculated separately for each different strength and
dosage form (version) of a drug. Accordingly, manufacturers could circumvent paying
additional rebates by developing new versions of existing brand-name drugs for which price
increases have exceeded inflation. The manufacturers could bring the new versions to market at
higher prices but would not have to pay additional rebates on the new versions unless subsequent
price increases exceeded inflation.

Our objectives were to determine the number of the top 150 brand-name drugs, ranked by
Medicaid reimbursement, having multiple versions and their potential impact on the additional
rebate component of the Medicaid drug rebate program.

Of the top 150 brand-name drugs for calendar year 2007 ranked by Medicaid reimbursement,
114 had more than one version. For 65 of the 114, the prices of the earliest versions of the drugs
exceeded their inflation-adjusted prices when the new versions entered the market. We
calculated that for calendar years 1993 through 2007, States could have collected approximately
$2.5 billion in additional rebates for the 65 brand-name drugs if the baseline AMPs of the new
Page 2 – Charlene Frizzera


versions had been adjusted (i.e., reduced) to reflect price increases in excess of inflation for the
earliest versions.

We did not evaluate the drug manufacturers’ bases for developing the new versions of existing
drugs identified in our review. Drug manufacturers may have had valid reasons to seek approval
from the Food and Drug Administration for these new versions. However, because the Medicaid
drug rebate program calculates rebates separately for each version of a drug, manufacturers could
develop new versions of existing brand-name drugs solely to avoid paying additional rebates
when they substantially increase prices. Without some modification to the rebate law, the risk of
manufacturers taking advantage of this potential loophole may increase over time. We
recommend that CMS continue to seek legislative authority to modify the present rebate formula
calculation to ensure that manufacturers cannot circumvent paying additional rebates by bringing
new versions of existing brand-name drugs to market. In comments on our draft report, CMS
concurred with our findings and recommendation.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov.
Please refer to report number A-06-09-00033 in all correspondence.


Attachment
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF ADDITIONAL REBATES FOR
BRAND-NAME DRUGS WITH MULTIPLE
            VERSIONS




                        Daniel R. Levinson
                         Inspector General

                           March 2010
                          A-06-09-00033
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicaid drug rebate program became effective on January 1, 1991, pursuant to section
1927 of the Social Security Act (the Act). For a manufacturer’s covered outpatient drug to be
eligible for Federal Medicaid funding, the manufacturer must enter into a rebate agreement that
is administered by the Centers for Medicare & Medicaid Services (CMS) and pay quarterly
rebates to the States. Section 1927(b)(3) of the Act requires a participating manufacturer to
report to CMS the average manufacturer price (AMP) and, if applicable, the best price for each
covered outpatient drug.

Section 1927(c)(1) defines a basic rebate amount for each unit of their single source and
innovator multiple source drugs (collectively, “brand-name drugs”) as the greater of the
difference between the AMP and the best price or a specified percentage of the AMP, which has
been 15.1 percent since January 1, 1996. Section 1927(c)(2) requires manufacturers to pay an
additional rebate when the AMP for a brand-name drug increases more than inflation. Generally,
the amount of the additional rebate is based on the amount that the drug’s reported AMP exceeds
its inflation-adjusted baseline AMP, and manufacturers pay the additional rebate for each unit of
the drug reimbursed by Medicaid.

The Food and Drug Administration (FDA) regulates and controls new drugs through the new
drug application (NDA) process. New drugs include new molecular entities, which contain
active ingredients previously not approved for marketing in any form in the United States, and
new dosage forms or strengths (“versions” in this report) of an active ingredient previously
approved for marketing in the United States. To market a new molecular entity, a drug
manufacturer must submit a new NDA. However, new versions of currently marketed drugs
may be approved through a supplemental application to a previous NDA.

Rebates, including additional rebates, are calculated separately for each different version of a
drug. Accordingly, manufacturers could circumvent paying additional rebates by developing
new versions of existing brand-name drugs for which price increases have exceeded inflation.
The manufacturers could bring the new versions to market at higher prices but would not have to
pay additional rebates on the new versions unless subsequent price increases exceeded inflation.

OBJECTIVES

Our objectives were to determine the number of the top 150 brand-name drugs, ranked by
Medicaid reimbursement, having multiple versions and their potential impact on the additional
rebate component of the Medicaid drug rebate program.

SUMMARY OF RESULTS

Of the top 150 brand-name drugs for calendar year 2007 ranked by Medicaid reimbursement,
114 had more than one version. For 65 of the 114, the prices of the earliest versions of the drugs
exceeded their inflation-adjusted prices when the new versions entered the market. We



                                                i
calculated that from calendar years 1993 through 2007, States could have collected
approximately $2.5 billion in additional rebates for the 65 brand-name drugs if the baseline
AMPs of the new versions had been adjusted (i.e., reduced) to reflect price increases in excess of
inflation for the earliest versions.

CONCLUSION

We did not evaluate the drug manufacturers’ basis for developing the new versions of existing
drugs identified in our review. Drug manufacturers may have many valid reasons to seek
approval from FDA for these new versions. However, because the Medicaid drug rebate
program calculates rebates separately for each version of a drug, manufacturers could develop
new versions of existing brand-name drugs solely to avoid paying additional rebates when they
substantially increase prices. Without some modification to the rebate law, the risk of
manufacturers taking advantage of this potential loophole may increase over time.

RECOMMENDATION

We recommend that CMS continue to seek legislative authority to modify the present rebate
formula calculation to ensure that manufacturers cannot circumvent paying additional rebates by
bringing new versions of existing brand-name drugs to market.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our findings and recommendation. CMS
said that it will continue to work with Congress to seek a legislative change. CMS’s comments
are included in their entirety as Appendix D.




                                                ii
                                                 TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION.............................................................................................................…..1

          BACKGROUND ....................................................................................................…..1
              Medicaid Drug Rebate Program .................................................................…..1
              Food and Drug Administration’s Role........................................................…..1
              Potential Rebate Loophole and Budgetary and Legislative Proposals .......…..2

          OBJECTIVES, SCOPE, AND METHODOLOGY................................................…..3
               Objectives ...................................................................................................…..3
               Scope...........................................................................................................…..3
               Methodology ...............................................................................................…..3

RESULTS OF REVIEW ..................................................................................................…..4

          BRAND-NAME DRUGS WITH MORE THAN ONE VERSION .......................…..4

          POTENTIAL IMPACT OF NEW DRUG VERSIONS ON
           ADDITIONAL REBATES...................................................................................…..5

          CONCLUSION.......................................................................................................…..6

          RECOMMENDATION ..........................................................................................…..7

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ...........…..7

APPENDIXES

          A: TIME BETWEEN EARLIEST DRUG VERSIONS AND NEW VERSIONS

          B: POTENTIAL ADDITIONAL REBATES

          C: BASELINE AVERAGE MANUFACTURER PRICE ADJUSTMENT
             METHODOLOGY

          D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                  iii
                                        INTRODUCTION

BACKGROUND

Medicaid Drug Rebate Program

The Medicaid drug rebate program became effective on January 1, 1991, pursuant to section
1927 of the Social Security Act (the Act). For a manufacturer’s covered outpatient drug to be
eligible for Federal Medicaid funding, the manufacturer must enter into a rebate agreement that
is administered by the Centers for Medicare & Medicaid Services (CMS) and pay quarterly
rebates to the States. Section 1927(b)(3) of the Act requires a participating manufacturer to
report to CMS the average manufacturer price (AMP) and, if applicable, the best price for each
covered outpatient drug.

CMS uses the AMP and, in some cases, the best price to calculate a unit rebate amount for each
drug. Section 1927(c)(1) defines a basic rebate amount for single source and innovator multiple
source drugs (collectively, “brand-name drugs”) as the greater of the difference between the
AMP and the best price or a specified percentage of the AMP, which has been 15.1 percent since
January 1, 1996. Section 1927(c)(3) defines the unit rebate amount for noninnovator (generic)
drugs as 11 percent of the AMP.

Section 1927(c)(2) requires manufacturers to pay an additional rebate when the AMP for a
brand-name drug increases more than inflation. Generally, the amount of the additional rebate is
based on the amount that the drug’s reported AMP exceeds its inflation-adjusted baseline AMP,
and manufacturers pay the additional rebate for each unit of the drug reimbursed by Medicaid.

Pursuant to section 1927(c)(2), the baseline AMP for a brand-name drug that was on the market
when the Act was passed is the AMP for the quarter ending September 30, 1990. The baseline
AMP for a drug that entered the market after October 1, 1990, is generally the AMP in effect for
the quarter after it entered the market. The baseline AMP for each drug is indexed to the
consumer price index for urban consumers (CPI-U) for the appropriate quarter. The baseline
AMP is adjusted each quarter by the percentage change in the consumer price index.

Food and Drug Administration’s Role

The Food and Drug Administration (FDA) regulates and controls new drugs through the new
drug application (NDA) process. According to the Food, Drug, and Cosmetic Act, section
201(p) [21 U.S.C. § 321(p)], the term “new drug” means:

       (1) any drug . . . the composition of which is such that such drug is not generally
       recognized, . . . as safe and effective for use under the conditions prescribed,
       recommended, or suggested in the labeling thereof . . . ; or . . . (2) [a]ny drug . . .
       the composition of which is such that such drug, as a result of investigations to
       determine its safety and effectiveness for use under such conditions, has become
       so recognized, but which has not, otherwise than in such investigations, been used
       to a material extent for a material time under such conditions.



                                                  1
This definition includes new molecular entities, which contain active ingredients previously not
approved for marketing in any form in the United States, and new forms or strengths (“versions”
in this report) of an active ingredient previously approved for marketing in the United States. To
market a new molecular entity, a drug manufacturer must submit a new NDA. However, new
versions of currently marketed drugs may be approved through a new NDA or a supplemental
application to a previous NDA. In fiscal year (FY) 2008, only 31 of 128 NDAs that FDA
received were for new molecular entities.

The FDA officials indicated that manufacturers could have various reasons for seeking approval
to market new versions of previously approved drugs, including drug improvements, marketing
purposes, product line extensions, and exclusive marketing rights extensions.

Potential Rebate Loophole and Budgetary and Legislative Proposals

Rebates, including additional rebates, are calculated separately for each different version of a
drug. Manufacturers could circumvent paying additional rebates by developing new versions of
existing brand-name drugs for which price increases have exceeded inflation. Manufacturers
could bring the new versions to market with higher prices but would not have to pay additional
rebates on the new drug versions unless subsequent price increases exceeded inflation.

The President’s budget request for FY 2010, the Congressional Budget Office’s (CBO) Budget
Options, Volume I—Health Care (December 2008), and legislation pending in the House of
Representatives (H.R. 3200) and Senate (Chairman’s Mark, America’s Healthy Future Act of
2009), as of September 16, 2009, acknowledge this loophole:

      The President’s budget addresses “the current loophole that enables drug manufacturers
       to circumvent the additional rebate by creating new formulations of drugs and charging
       higher initial prices for these drugs” and recommends applying the Medicaid additional
       rebate to new formulations of existing drugs. For FY 2010, CMS estimated the cost
       savings of this proposal to be $150 million. Cumulative savings by FY 2014 could be
       approximately $1.3 billion, and by FY 2019, the cumulative cost savings could be
       approximately $3.0 billion.

      CBO published a budget option regarding new extended-release versions of existing
       drugs. The additional rebate obligation for a new drug would be the greater of the AMP
       percentage that is owed for the new drug or the AMP percentage that is owed for the
       original drug. CBO estimated potential savings of $130 million for FY 2010,
       approximately $1.3 billion in cumulative cost savings for FYs 2010 through 2014, and
       approximately $3.0 billion for FYs 2010 through 2019.

      H.R. 3200 is sponsored by Representative John D. Dingell and cosponsored by eight
       representatives. H.R. 3200 would amend the current rebate law to allow additional
       rebates on new extended-release versions of existing drugs.




                                                2
       A Senate bill, America’s Healthy Future Act, has been proposed by Senator Max Baucus.
        The bill proposes that the additional rebate obligation for a new version of an existing
        drug be calculated using the baseline AMP of the original drug.

                         OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine the number of the top 150 brand-name drugs, ranked by
Medicaid reimbursement, having multiple versions and their potential impact on the additional
rebate component of the Medicaid drug rebate program.

Scope

We reviewed the top 150 brand-name drugs for calendar year (CY) 2007 ranked by Medicaid
reimbursement. We identified brand-name drugs using the brand name and innovator fields in
the National Drug Data File Plus. 1 We focused our review on brand-name drugs with multiple
versions and the potential additional rebates of those brand-name drugs that States could have
collected from the inception of the Medicaid drug rebate program through CY 2007.

We did not evaluate the drug manufacturers’ reasons for developing new versions of existing
drugs.

Our objective did not require that we identify or review any internal controls.

Methodology

To accomplish our objectives, we:

       reviewed laws and CMS guidance regarding the Medicaid drug rebate program;

       interviewed FDA representatives;

       reviewed FDA guidance on the NDAs;

       identified the unique drug names in the National Drug Data File Plus that were classified
        as brand-name drugs; 2

       identified the top 150 brand-name drugs for CY 2007 based on CMS’s State Medicaid
        Utilization Data;

1
 The National Drug Data File Plus, maintained by First DataBank, Inc., includes a brand name and an innovator
indicator for every drug approved by FDA. The brand name is the name that appears on the package label provided
by the manufacturer. The innovator indicator identifies whether the drug is a generic or a brand-name drug.
2
 We considered drugs with variations of the same brand name (e.g., drug ABC and ABC XR, for which the “XR”
represented extended release) to be the same drug if they had the same active chemical ingredients.


                                                       3
      obtained from CMS pricing, rebate, and utilization information for the top 150 brand-
       name drugs;

      identified top brand-name drugs with more than one version;

      eliminated from consideration new versions entering the market within 1 year of the
       earliest versions;

      determined whether additional rebates were applicable by identifying the new drug
       versions that entered the market when the earliest versions’ quarterly AMPs were greater
       than the inflation-adjusted baseline AMPs;

      calculated a modified baseline quarterly AMP for each of the new versions identified
       above;

      calculated the additional rebate amounts based on the modified baseline quarterly AMPs
       for each quarter that the new versions were on the market; and

      calculated the monetary effect of the modified baseline quarterly AMPs on the additional
       rebates for each quarter affected from CYs 1993 to 2007.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                     RESULTS OF REVIEW

Of the top 150 brand-name drugs for CY 2007 ranked by Medicaid reimbursement, 114 had
more than one version. For 65 of the 114, the prices of the earliest versions of the drugs
exceeded their inflation-adjusted prices when the new versions entered the market. We
calculated that for CYs 1993 through 2007, States could have collected approximately
$2.5 billion in additional rebates for the 65 brand-name drugs if the baseline AMPs of the new
versions had been adjusted (i.e., reduced) to reflect price increases in excess of inflation for the
earliest versions.

BRAND-NAME DRUGS WITH MORE THAN ONE VERSION

Of the top 150 brand-name drugs for CY 2007 ranked by Medicaid reimbursement, 114 had
more than one version. Eighty-three of the brand-name drugs had at least one new version with a
market entry date more than a year after the earliest versions were marketed. While 49 of the 83
brand-name drugs had only 1 or 2 new versions, 15 drugs had 5 or more new versions. Table 1
provides a breakdown of the number of new versions associated with the 83 brand-name drugs.




                                                  4
The time between the market entry dates of the earliest versions and the new versions for the 83
brand-name drugs ranged from approximately 1 year to 15½ years. The average length of time
between market entry dates was more than 5½ years. The manufacturers of 10 of the 83
brand-name drugs brought new versions to the market more than 10 years after the earliest
versions had been marketed. Appendix A shows the time between manufacturers’ placement of
the earliest versions of the 83 brand-name drugs on the market and their placement of the new
versions on the market.

POTENTIAL IMPACT OF NEW DRUG VERSIONS ON ADDITIONAL REBATES

The prices of the earliest versions of 65 of the top 150 drugs exceeded their inflation-adjusted
prices when new versions of the drugs entered the market. The prices of the earliest versions
averaged 18.8 percent more than their inflation-adjusted prices. The average price in excess of
the inflation-adjusted price was significantly higher when the new versions were marketed more
than 10 years after the earliest versions. For 9 of the 65 brand-name drugs with new versions
marketed more than 10 years later, the prices of the earliest versions exceeded their inflation-
adjusted prices by an average of nearly 42 percent.

We calculated that, for CYs 1993 through 2007, States would have collected approximately
$2.5 billion in additional rebates for the 65 brand-name drugs if the baseline AMPs of the new
versions had been lowered by the percentage that the earliest versions exceeded their inflation-
adjusted prices. With actual rebates over the period approaching $6 billion, the additional
$2.5 billion represented what would have been a nearly 42-percent increase in rebates for the
new versions. Table 2 shows the potential annual impact on the rebate program. (Appendix B
provides the potential rebate amounts for each of the 65 brand-name drugs for CYs 1993 through
2007.)




                                                5
Appendix C provides a hypothetical example to illustrate our calculation of the modified
baseline AMP for a new version of a previously approved drug. We developed that example
based on the following assumptions:

   A.   Baseline AMP of the earliest version at the inception of the drug rebate program = $1.00
   B.   AMP of the earliest version when the new drug version was introduced = $2.00
   C.   Baseline AMP of new drug version, first marketed December 1996 = $3.00
   D.   CPI-U for baseline quarter of the earliest version = 132.7
   E.   CPI-U for first quarter of CY 2007 = 158.6

From these assumptions, we could calculate the following:

   F. Inflation-adjusted baseline AMP for earliest version = (A / D) H E or
      ($1.00 / 132.7) H 158.6 = $1.20
   G. Modified baseline AMP for new version = C – ([(B – F) / B] H C) or
      $3.00 – ([($2.00 – $1.20) / $2.00] H $3.00) = $1.80
   H. Additional rebate for new version = C – G = $3.00 – $1.80 = $1.20

The additional rebate using the modified baseline AMP would have been $1.20. Under current
law, no additional rebate is due on the new version of a drug when it is put on the market.

CONCLUSION

We did not evaluate the drug manufacturers’ bases for developing the new versions of existing
drugs identified in our review. Drug manufacturers may have had valid reasons to seek approval
from FDA for these new versions. However, because the Medicaid drug rebate program
calculates rebates separately for each version of a drug, manufacturers could develop new
versions of existing drugs solely to avoid paying additional rebates when they substantially
increase prices. Without some modification to the rebate law, the risk of manufacturers taking
advantage of this potential loophole may increase over time.


                                                6
RECOMMENDATION

We recommend that CMS continue to seek legislative authority to modify the present rebate
formula calculation to ensure that manufacturers cannot circumvent paying additional rebates by
bringing new versions of existing brand-name drugs to market.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our findings and recommendation. CMS
said that it will continue to work with Congress to seek a legislative change. CMS’s comments
are included in their entirety as Appendix D.




                                               7
APPENDIXES
                                                                                                     Page 1 of 3


              APPENDIX A: TIME BETWEEN EARLIEST DRUG VERSIONS
                              AND NEW VERSIONS

                                                                        2 Years        5 Years
              Number          Base                                      Through        Through
                 of         Calendar       Number           Less          Less           Less          10 or
 Drug         Earliest       Year/          of New         Than 2        Than 5        Than 10         More
Number 1      Versions      Quarter        Versions        Years         Years          Years          Years
   1             4           1994/2            12            0             1              8              3
   2             3           1998/1             3            0             1              2              0
   3             4           2003/1             6            0             6              0              0
   4             2           1998/2             2            0             1              1              0
   5             3           1996/4             7            0             4              3              0
   6             2           1995/3             5            0             0              5              0
   7             4           1990/4             2            0             0              0              2
   8             2           1996/2           16             4             6              6              0
   9             3           2001/3             3            0             0              3              0
  10             2           2000/4             1            1             0              0              0
  11             1           1998/4             3            1             0              2              0
  12             4           1995/2             2            0             2              0              0
  13             3           1997/2             3            2             0              1              0
  14             4           2001/2             2            0             0              2              0
  15             2           1997/2             1            0             1              0              0
  16             2           2002/4             1            1             0              0              0
  17             5           2003/1             2            0             2              0              0
  18             4           2001/2             1            1             0              0              0
  19             5           1994/2             3            0             3              0              0
  20             1           1998/2             4            0             2              2              0
  21             2           2000/3             3            0             1              2              0
  22             3           2000/2             1            1             0              0              0
  23             3           2002/2             4            0             4              0              0
  24             3           2005/2             1            0             1              0              0
  25             2           1999/3             2            0             1              1              0
  26             2           1993/2             2            0             0              0              2
  27             2           1990/4             5            0             0              2              3
  28             3           2003/4             1            0             1              0              0
  29             1           1998/4             1            0             0              1              0
  30             2           2000/4             1            0             0              1              0
  31             2           1999/3             1            0             1              0              0
  32             1           1999/1             3            0             0              3              0
  33             1           1993/3             7            0             1              6              0
  34             5           1997/2             4            0             3              1              0

1
This is a number that we assigned to 83 of the top 150 brand-name drugs that contained at least one new version
with a market date more than 1 year after the earliest versions. It does not indicate rank within the top 150.
                                                                       Page 2 of 3


                                                   2 Years   5 Years
         Number       Base                         Through   Through
            of      Calendar   Number      Less      Less      Less     10 or
 Drug    Earliest    Year/      of New    Than 2    Than 5   Than 10    More
Number   Versions   Quarter    Versions   Years     Years     Years     Years
  35        1        1995/1        2        0          2        0         0
  36        3        1994/3        1        0          1        0         0
  37        2        1994/2        2        0          1        1         0
  38        1        1993/2        8        0          4        0         4
  39        1        1995/4        1        1          0        0         0
  40        2        1999/2        2        0          1        1         0
  41        1        1993/1        1        0          0        1         0
  42        1        1995/3        3        0          3        0         0
  43        1        1998/3        4        0          1        3         0
  44        2        2001/4        1        1          0        0         0
  45        4        1991/3        1        0          0        0         1
  46        1        1996/2        1        0          1        0         0
  47        1        1990/4        2        0          1        1         0
  48        1        2003/1        1        1          0        0         0
  49        1        2000/3        1        1          0        0         0
  50        2        1996/1        4        1          0        3         0
  51        1        1996/4        2        0          2        0         0
  52        2        1998/3        2        0          2        0         0
  53        1        2003/2        1        0          1        0         0
  54        1        2001/4        1        0          1        0         0
  55        2        1992/2        2        0          0        2         0
  56        2        1997/3        2        0          2        0         0
  57        1        2000/4        1        0          0        1         0
  58        5        1990/4        6        0          0        0         6
  59        5        2002/1       31        4         27        0         0
  60        1        1991/2        4        0          2        2         0
  61        3        1998/4        1        0          1        0         0
  62        1        2001/3        7        0          7        0         0
  63        3        1991/2        1        0          0        1         0
  64        1        1996/3        1        0          0        1         0
  65        2        1998/2        3        0          1        2         0
  66        5        1997/4        2        0          0        2         0
  67        1        1996/2       11        1         10        0         0
  68        3        1992/2        1        0          0        1         0
  69        3        1995/4        3        0          0        1         2
  70        4        1990/4        4        0          0        0         4
  71        3        1990/4        3        0          0        3         0
  72        2        1993/2        6        0          2        4         0
  73        2        1995/3        1        0          1        0         0
                                                                       Page 3 of 3


                                                   2 Years   5 Years
         Number       Base                         Through   Through
            of      Calendar   Number      Less      Less      Less     10 or
 Drug    Earliest    Year/      of New    Than 2    Than 5   Than 10    More
Number   Versions   Quarter    Versions   Years     Years     Years     Years
  74        2        1998/2        1        0         0         1         0
  75        1        1990/4        8        0         0         8         0
  76        4        1992/2        1        0         0         1         0
  77        2        1997/1        2        0         0         2         0
  78        1        1990/4        1        0         0         1         0
  79        1        2002/2        4        2         2         0         0
  80        2        1990/4        2        0         0         1         1
  81        5        1997/4        2        1         1         0         0
  82        1        1990/4        6        0         0         6         0
  83        2        2002/2        1        0         1         0         0
                                                                                  Page 1 of 2


                   APPENDIX B: POTENTIAL ADDITIONAL REBATES

       Drug          Base Calendar Number of                    Quarters   Monetary Impact
      Number 1       Year/Quarter New Versions                  Affected    Through 2007
        27              1990/4         5                          129       $428,918,065
         8              1996/2        16                          246        410,346,160
         1              1994/2        11                          173        299,327,309
         7              1990/4         2                           47        254,679,454
         2              1998/1         3                           39        104,145,429
        72              1993/2         6                          184         89,788,212
        75              1990/4         8                          259         89,370,136
        19              1994/2         3                          117         82,650,997
        38              1993/2         8                          210         61,741,263
        47              1990/4         2                          101         60,103,070
         5              1996/4         5                          107         58,471,434
        50              1996/1         4                          109         55,303,210
        20              1998/2         4                           60         48,941,698
        11              1998/4         2                           15         44,254,869
        66              1997/4         2                           16         34,916,357
        13              1997/2         3                           83         34,685,216
        26              1993/2         2                           16         33,154,904
        78              1990/4         1                           38         29,823,675
        70              1990/4         4                           73         26,479,218
        32              1999/1         3                           16         26,108,176
        58              1990/4         6                           52         20,295,054
        41              1993/1         1                           20         18,926,261
        23              2002/2         4                           31         17,219,244
         4              1998/2         2                           47         15,167,289
        62              2001/3         7                           64         13,632,326
        56              1997/3         2                           54         10,804,166
        65              1998/2         3                           31         10,145,857
        63              1991/2         1                           37         10,136,646
        52              1998/3         2                           37          9,398,876
        21              2000/3         3                           25          8,795,362
        10              2000/4         1                           21          8,638,831
        71              1990/4         3                          131          7,682,184
        68              1992/2         1                           22          6,483,317
        29              1998/4         1                            9          6,439,137
        80              1990/4         1                           43          6,136,552
        36              1994/3         1                           34          5,612,525
        33              1993/3         3                           73          4,425,987
        73              1995/3         1                           32          4,345,518

1
    The drug numbers correspond to the numbers in Appendix A.
                                                       Page 2 of 2


                         Number of
 Drug    Base Calendar     New       Quarters   Monetary Impact
Number   Year/Quarter     Versions   Affected    Through 2007
  12        1995/2            2         72          4,072,641
  64        1996/3            1         16          3,792,787
  28        2003/4            1          3          2,204,026
  42        1995/3            3         99          2,184,221
  51        1996/4            2         63          2,118,642
   9        2001/3            3          9          2,105,706
  25        1999/3            2         32          2,003,783
   3        2003/1            6         31          1,736,493
  17        2003/1            2         12          1,401,704
  74        1998/2            1         15          1,297,436
   6        1995/3            2         39          1,046,419
  39        1995/4            1         41          1,027,900
  53        2003/2            1          4            820,411
  49        2000/3            1         23            683,626
  81        1997/4            2         57            560,107
  45        1991/3            1          9            507,275
  60        1991/2            2         66            444,588
  54        2001/4            1          8            432,951
  18        2001/2            1         12            388,215
  79        2002/2            4         38            263,282
  16        2002/4            1         11            170,356
  83        2002/2            1         10            163,316
  34        1997/2            1         11             41,314
  55        1992/2            1         26             17,447
  77        1997/1            2         16             15,641
  24        2005/2            1          1              6,533
  40        1999/2            1          2                508
        APPENDIX C: BASELINE AVERAGE MANUFACTURER PRICE
                     ADJUSTMENT METHODOLGY

We adjusted the baseline average manufacturer prices (AMP) of the new drug versions in
our review when the AMPs of the earliest versions exceeded their inflation-adjusted
AMPs. Following is a hypothetical example that demonstrates our methodology. When
there was more than one earliest version, we lowered the baseline AMP of the new
version by the average percentage that the AMPs for the earliest versions exceeded their
inflation-adjusted AMPs.
                                                Earliest Version        New Version
Market date                                       09/30/1990             12/31/1996
Baseline quarter/calendar year (CY)                  4/1990                1/1997
Baseline AMP                                          $1.00                 $3.00
Baseline CPI-U                                        132.7                 158.6
AMP for first quarter CY 1997                         $2.00                 $3.00

Earliest version inflation-adjusted AMP as of first quarter CY 1997
 ($1.00 / 132.7) H 158.6                                                    $1.20
Amount in excess of inflation-adjusted AMP for earliest version
 $2.00 – $1.20                                                              $0.80
Percentage earliest version AMP exceeds inflation-adjusted AMP
 $0.80 / $2.00                                                               40%
Adjusted baseline AMP for new version
 $3.00 – ($3.00 H 0.40)                                                     $1.80

Under current law, the additional rebate for the new version is $0.00. Using the modified
baseline AMP, the additional rebate would be $1.20 per unit.




CPI-U = consumer price index for urban consumers
                                                                                                                      Page 1 0f2



   APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES 

                        COMMENTS 





'.. . . ·~
         ··4
 DEPARTMENTOF HEALTH & HUMAN SERVICES                                          Centers tor Mudlcere & MedIcaIcI ServICH
. . .~"z'-                                                                                  Ad",jllistrator
                                                        1010 JAN 12 PH 12: 08               washington, DC 20201

                         JAN r 8 2010                   oJr,. h, .. vt   ,I • • ;   l ...
        DATE:                                                    GENER Al
        TO:             Daniel R. Levinson 

                        Inspector General 


        FROM:
                  ~~~"'''D~~
                  Charlene Frizzcta
                        Acting Administrator

        SU BJ ECT: 	 Office of Inspector General (OIG) Draft Report : "Review of Additional Rebates
                     for Brand·Name Drugs with Multiple Versions" (A·06-09-00033)


        Thank you for the opportunity to review and comment on the subject OIG draft report. In this
        draft report, the DIG detennines the number of the top 150 brand-name drugs, ronked by
        Medicaid reimbursement, that have multiple dosage fenns and strengths (versions) and their
        potential impact on the additional rebate component of the Medicaid drug rebatc program.

        Rebates, incfuding additional rebates, are calcuJated separately for eaeh different version of a
        drug. Manufacturers are required to pay an additional rebate when the average manufacturer
        price (AMP) for <1 brand-name drug increases more than inflation. The amount of the additional
        rebate is based on the amount that the drug' s reported AMP exceeds its inflation-adjusted
        baseline AMP, and manufacturers pay the additional rebate for eaeh unit of the drug reimbursed
        by Medicaid. When a manufacturer owes an additional rebate on a drug, it could circumvent
        paying the additional rebate by devcloping a new version of an existing brand name drug and
        introducing the new version to the market at a higher price. The baseline AMP is reset to the
        new version of the drug and the manufacturer would not have to pay additional rebates unless
        subsequent price increases exceed inflation.

       The OIG notes that the President's budget request for fiscal year 20 10 and the 2008
       Congressional Budget Office's Budget Options acknowledge this apparent loophole. Pending
       legislation seeks to address this issue.

        O IG Findings

       The DIG found thal oflhe lOp 150 brand-name drugs for calendar year (CY) 2007 ranked by
       Medicaid reimbursement, 114 drugs had more than one version. Additionally, the OIG found
       that for 65 of the 114 brand name drugs, the prices of the earliest versions of the drug exceeded
       their inflation-adjusted prices when the new versions entered the market. The prices of the
       earliest versions average 18.8 percent more than their inflation-adjusted prices. For nine of the
       65 brand-name drugs with new versions marketed more than 10 years later, the prices of the
       earliest versions exceeded their inflation adjusted prices by an average of nearly of 42 percent.
                                                                                                        Page 2 of2




Page 2 - Daniel R. Levinson

The 0[0 calculated that for CYs 1993 through 2007, StatCll co uld have collected approximately
$2.5 billion in additional rebates for the 65 brand-name drugs ifthe baseline AMPs of the new
versions had been reduced to reflect price increases in excess of inflation for the earliest version.
The additional $2.5 biUion represented what would have been a nearly 42 percent increase in
rebates for the new versions.

Recom mendation

The 010 recommends that lite Cenlers for Medicare & Medicaid Services (CMS) continue to
seck legislative authority to modify the present rebate formula calculation 10 ensure that
manufacturers cannot circumvent payi ng additional rebates by bringing new versions ofexisting
brand-name drugs to market.

CMS Response

We concur. CMS wiU continue to work with Congress to seek a legislative change.

We appreciate the work ofthe 010 in this report and hope that the find ings of this report wiU
encourage Congress to close this potentialloopho[e.
